<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                  
                        [H.A.S.C. No. 115-96]

                               MEMBER DAY

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 11, 2018


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-570                     WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------



                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
BILL SHUSTER, Pennsylvania           MADELEINE Z. BORDALLO, Guam
K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROBERT J. WITTMAN, Virginia          JOHN GARAMENDI, California
DUNCAN HUNTER, California            JACKIE SPEIER, California
MIKE COFFMAN, Colorado               MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
PAUL COOK, California                RUBEN GALLEGO, Arizona
JIM BRIDENSTINE, Oklahoma            SETH MOULTON, Massachusetts
BRAD R. WENSTRUP, Ohio               COLLEEN HANABUSA, Hawaii
BRADLEY BYRNE, Alabama               CAROL SHEA-PORTER, New Hampshire
SAM GRAVES, Missouri                 JACKY ROSEN, Nevada
ELISE M. STEFANIK, New York          A. DONALD McEACHIN, Virginia
MARTHA McSALLY, Arizona              SALUD O. CARBAJAL, California
STEPHEN KNIGHT, California           ANTHONY G. BROWN, Maryland
STEVE RUSSELL, Oklahoma              STEPHANIE N. MURPHY, Florida
SCOTT DesJARLAIS, Tennessee          RO KHANNA, California
RALPH LEE ABRAHAM, Louisiana         TOM O'HALLERAN, Arizona
TRENT KELLY, Mississippi             THOMAS R. SUOZZI, New York
MIKE GALLAGHER, Wisconsin            JIMMY PANETTA, California
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming
JODY B. HICE, Georgia

                      Jen Stewart, Staff Director
                Ari Zimmerman, Professional Staff Member
               Paul Arcangeli, Professional Staff Member
                          Justin Lynch, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Chabot, Hon. Steve, a Representative from Ohio...................     1
Donovan, Hon. Daniel M., Jr., a Representative from New York.....     6
Johnson, Hon. Mike, a Representative from Louisiana..............     8
Kihuen, Hon. Ruben J., a Representative from Nevada..............     5
Rutherford, Hon. John H., a Representative from Florida..........    11
Schneider, Hon. Bradley Scott, a Representative from Illinois....    13
Velazquez, Hon. Nydia M., a Representative from New York.........     3

                                APPENDIX

Prepared Statements:

    Chabot, Hon. Steve...........................................    19
    Donovan, Hon. Daniel M., Jr..................................    34
    Johnson, Hon. Mike...........................................    36
    Kihuen, Hon. Ruben J.........................................    32
    Rutherford, Hon. John H......................................    40
    Schneider, Hon. Bradley Scott................................    43
    Velazquez, Hon. Nydia M......................................    26

Documents Submitted for the Record:

    Blumenauer, Hon. Earl, a Representative from Oregon, joint 
      with Hon. Adam Kinzinger, a Representative from Illinois...    51
    Bustos, Hon. Cheri, a Representative from Illinois...........    52
    Congressional Special Operations Forces Caucus Co-Chairs.....    54
      Hon. Kathy Castor, a Representative from Florida
      Hon. Walter B. Jones, a Representative from North Carolina
      Hon. Scott H. Peters, a Representative from California
      Hon. Timothy J. Walz, a Representative from Minnesota
    Crawford, Hon. Eric A. ``Rick,'' a Representative from 
      Arkansas...................................................    56
    Kinzinger, Hon. Adam, a Representative from Illinois.........    58
    Kinzinger, Hon. Adam, joint with Hon. Earl Blumenauer........    51
    Lipinski, Hon. Daniel, a Representative from Illinois........    72
    Pearce, Hon. Stevan, a Representative from New Mexico........    75
    Walden, Hon. Greg, a Representative from Oregon..............    79
    Yarmuth, Hon. John A., a Representative from Kentucky........    80
    Young, Hon. Don, a Representative from Alaska................    82

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
                               
.                               
                               MEMBER DAY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, April 11, 2018.
    The committee met, pursuant to call, at 1:33 p.m., in Room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. The 
committee is pleased to receive testimony today from our 
colleagues on what their priorities are for this year's 
National Defense Authorization Bill. And so I would like to ask 
unanimous consent that all Members' written statements will be 
made part of the record. Now, I would note we have received I 
think approximately 14 written statements as well as our 
colleagues who are here in person.
    So let me welcome everyone. I would yield to the ranking 
member for any comments he would like to make.
    Mr. Smith. No, don't have any comments. I look forward to 
the rest of the testimony. Thank you.
    The Chairman. Again, thank you all for being here. We will 
start with--and I don't know if you all are doing this together 
or separately, chairman of the Small Business Committee and Ms. 
Velazquez, the ranking member, we appreciate the working 
relationship over a number of years that we have had to try to 
expand the defense industrial base especially for small and 
mid-sized companies.
    Thank you both for being here.
    Chairman Chabot, the floor is yours.

   STATEMENT OF HON. STEVE CHABOT, A REPRESENTATIVE FROM OHIO

    Mr. Chabot. Thank you very much, Chairman Thornberry and 
Ranking Member Smith. And I--as you indicated, we have always 
had a very good working relationship, Ranking Member Velazquez 
and myself, and we hope to continue to do that. We work 
together in a very bipartisan way on the committee, all of the 
members really do.
    I appreciate the opportunity to testify before you on the 
National Defense Authorization Act [NDAA] for Fiscal Year 2019. 
Let me begin by thanking the committee for its longstanding 
collaboration with the Small Business Committee. It has been my 
privilege to serve on the Small Business Committee for over 20 
years now and through those years, I know that the Armed 
Services Committee and our committee have really worked very 
well together, so thank you for that relationship.
    Your commitment to small businesses is evidenced through 
the numerous small-business provisions being enacted into law 
each year. I am here today to support the inclusion of 13 
small-business bills in this year's NDAA; each of them is 
important in ensuring a robust defense industrial base and I 
will focus on a few highlights in my limited time.
    First, I would like to highlight an important 
recommendation made by the Section 809 Panel in its Volume 1 
report. Recognizing the agility and innovativeness small 
businesses bring to the table, the panel advocated for 
increased use of research and development programs specifically 
calling for the greater utilization of the Small Business 
Innovation Research [SBIR] and Small Business Technology 
Transfer [STTR] programs across the Department of Defense.
    In a similar vein, H.R. 2763 makes a number of important 
changes to the SBIR and STTR programs, these are the ones that 
I just referred to, including improving agency accountability, 
instituting reporting deadlines, and requiring the Small 
Business Administration to provide future Congresses with a 
greater understanding of the program's strength and weaknesses.
    Additionally, the legislation ensures taxpayers reap the 
benefits of the SBIR and STTR programs by tying them to long-
term projects at the Defense Department. I want to, again, 
emphasize that improving the SBIR and STTR programs through 
this legislation closely follows the recommendations made by 
the Section 809 Panel, and I urge you to consider this 
important legislation for the fiscal year 2019 NDAA.
    In addition, the Section 809 Panel made a number of 
recommendations regarding small-business contracting. Given 
that the Federal Government spends over a half trillion dollars 
each year through contracts, the Federal procurement market is 
extremely important for small businesses. Unfortunately, as the 
panel indicated, the number of small-business contract actions 
dropped nearly 70 percent from fiscal year 2011 to 2016 while 
the value of the Department of Defense [DOD] small-business 
contracts rose approximately 290 percent.
    The decline in the number of small-business contract 
actions indicates DOD's small-business contracting is 
unfortunately not promoting competition and fostering 
robustness in the defense market enough.
    These startling statistics indicate an immediate need to 
reverse this decline, so I would urge you to consider H.R. 
5337, 4754, and 5144, all of which would facilitate small-
business participation in the Federal contracting area. 
Furthermore, I would urge this committee to consider H.R. 4668 
and 3170. These commonsense cybersecurity bills are vital to 
protecting our national security. Small businesses are 
increasingly targeted by cyber criminals due to their lack of 
resources and technical knowledge to prevent cyberattacks, and 
may not be able to afford hiring specialized employees or 
cybersecurity experts.
    Thus, it is important for the Federal Government and 
private sector to work together to combat cyber threats by 
making information technology education accessible for small 
businesses. H.R. 4668 and 3170 would do just that.
    Additionally, I would like to ask the committee to consider 
H.R. 2333, 2364, and 2056, all of which assist small businesses 
with much-needed capital. Despite an economy that is starting 
to show signs of improvement, small business continue to face 
obstacles when it comes to accessing capital.
    To address these challenges, the Committee on Small 
Business worked in a bipartisan manner on these measures to 
assist small businesses as they seek capital to grow and 
expand. Our Nation demands a vital small-business industrial 
base. It is fundamental to the health of our Nation as a whole 
and I am grateful to the Armed Services Committee for working 
with the Small Business Committee, and I look forward to 
working with you to ensure that small businesses continue to 
provide the Department of Defense and the Federal Government 
with competitive solutions to support critical programs.
    And I would be happy to answer any questions, and again, 
thank you for allowing us to testify.
    [The prepared statement of Mr. Chabot can be found in the 
Appendix on page 19.]
    The Chairman. Thank you. Do any members have questions of 
Chairman Chabot? Great.
    Ms. Velazquez.

STATEMENT OF HON. NYDIA M. VELAZQUEZ, A REPRESENTATIVE FROM NEW 
                              YORK

    Ms. Velazquez. Thank you. Chairman Thornberry, Ranking 
Member Smith, and members of this committee, I am honored to 
advance bipartisan legislation that will benefit small 
businesses alongside my colleague, Chairman Chabot. I would 
like to echo his remarks regarding our bipartisan working 
relationship. I strongly believe that when it comes to small-
business issues, there is no Republican or Democratic approach 
and we have guided the committee in that spirit.
    We are all aware of the devastation last year's hurricanes 
caused to Puerto Rico. But one thing is clear, if we are to 
restore the quality of life in Puerto Rico, small businesses 
will be central to that equation. I am very proud of Puerto 
Rico not only because it is where I was born, but because of 
the resilience of its people.
    Unfortunately, even today, more than 6 months after Maria, 
an estimated 20 percent of the island's small businesses remain 
closed and others face continued hardships with power and basic 
living needs. That is why I appreciate Chairman Chabot bringing 
H.R. 5178, the Puerto Rico Small Business Contracting 
Assistance Act, before the Small Business Committee.
    This bill was approved with bipartisan support in March. 
The Federal Government's procurement of goods and services can 
be one of our most powerful tools for stimulating economic 
activity. Unfortunately, to date Puerto Rico has been largely 
left out of the Federal marketplace. Of the small number of 
Federal contracts performed in Puerto Rico a substantial 
percentage of those contracts are performed by firms outside of 
Puerto Rico.
    In fact, the total awards to Puerto Rico's small businesses 
declined from about $426 million in fiscal year 2014 to about 
$342 million in fiscal year 2015. My bill aims to increase 
contracting by offering incentives such as granting agencies 
like DOD the ability to double the value of contract awards to 
Puerto Rican small-business concerns when counting the small-
business prime contracting goal.
    It also provides training opportunities for firms wishing 
to participate in the Federal marketplace through the Mentor-
Protege Program. We must remember that as citizens of the 
United States, Puerto Ricans have fought, shed blood, and given 
their lives in nearly every major American war. We owe it to 
them to help rebuild, and this bill will advance that goal.
    We started working on this legislation a year ago, long 
before Maria. After the hurricane, we need this bill and its 
assistance for Puerto Rico even more today.
    Beyond Puerto Rico, the legislation before us today will 
help American small businesses more broadly. The SBA [Small 
Business Administration] administers a portfolio of 
entrepreneurial development programs including Small Business 
Development Centers, Women Business Centers, and the Service 
Corps of Retired Executives, or SCORE. I think we can all agree 
that these programs offer our Nation's job creators vital tools 
to grow and create jobs.
    H.R. 1774, the Developing the Next Generation of Small 
Businesses Act of 2017, streamlines this program and makes them 
more effective, helping more firms access the assistance they 
need. Access to affordable capital is a longstanding challenge 
our committee has prioritized. H.R. 2364 will help boost the 
small-business investment company program success by modifying 
how much private capital banks and savings associations can 
invest in these companies.
    And H.R. 2056 increases the intermediary loan limit in the 
micro-loan program by $1 million, allowing successful lenders 
to serve more borrowers in high-demand locations. Additional 
areas where small firms add to our economy are innovation and 
infrastructure. Innovative firms drive America's competitive 
edge in the global marketplace, yet the USPTO [United States 
Patent and Trademark Office] reported that just 15 percent of 
small businesses know they need to file for IP [intellectual 
property] protection abroad.
    H.R. 2655 addresses this by creating a partnership between 
the two agencies best suited to help them, the SBA and the 
USPTO. And as we contemplate our country's infrastructure, we 
must protect the small businesses at the heart of building our 
roads and bridges. Performance bonds protect taxpayers from 
loss if a contractor on a Federal project defaults. H.R. 4486 
amends the Miller Act to provide payment protection to small 
business that perform work on Federal construction projects. It 
does so by exempting certain construction contracts that must 
be bonded under the Miller Act from periodic inflation.
    In sum, Mr. Chairman, I believe we have a strong package of 
bills before you. I want to thank you, the committee, again for 
allowing me to testify. And I urge the inclusion of all these 
bills, including those highlighted by Chairman Chabot, to 
bolster the presence and economic health of our country's small 
businesses. Thank you.
    [The prepared statement of Ms. Velazquez can be found in 
the Appendix on page 26.]
    The Chairman. Are there any questions for Ms. Velazquez? 
Great.
    Thank you both.
    Ms. Velazquez. Thank you.
    The Chairman. We look forward to working together again.
    Ms. Velazquez. Thank you.
    The Chairman. Mr. Kihuen, welcome. The floor is yours.
    Is the microphone on or? There we go.

STATEMENT OF HON. RUBEN J. KIHUEN, A REPRESENTATIVE FROM NEVADA

    Mr. Kihuen. Thank you, Mr. Chairman. And thank you Ranking 
Member Smith and my colleagues on the Armed Services Committee. 
I want to thank you for giving me the opportunity to come 
before the committee to discuss the vital role the military 
installations in Nevada's Fourth Congressional District play in 
protecting our national security.
    Members of the committee, I want to begin with Nellis Air 
Force Base in the Las Vegas Valley. It's in the adjacent Nevada 
test site and training range. Nellis is known as the home of 
the Thunderbirds, which showcases the remarkable skills of our 
Nation's most highly trained military pilots, and whose pilots 
consider themselves America's ambassadors in blue.
    If I may have a moment, Mr. Chairman, of personal 
privilege, I would like to recognize Major Stephen ``Cajun'' 
Del Bagno, a Thunderbird pilot who was killed last week on 
April 4th, 2018, during a training exercise. My thoughts go out 
to his family and his loved ones.
    Nellis' mission goes far beyond the Thunderbirds and it is 
also the home of the U.S. Air Force Warfare Center, the largest 
and most demanding advanced air combat training mission in the 
world. Aircraft from Nellis operate in the Nevada Test and 
Training Range where more than 75 percent of all the live 
munitions used by the Air Force for training are dropped. 
Nellis employs 11,000 military and 3,700 civilians, making it 
one of the largest employers in the State of Nevada. In total, 
the Nellis complex has an economic impact of over $5.5 billion 
annually.
    Nellis Air Force Base is also home to Red Flag, the 
premiere military training exercise in the world. Red Flag was 
created to provide the U.S. and our allies combat training in a 
realistic but safe environment. Red Flag brings together units 
with diverse missions ranging from air interdiction, combat 
search and rescue, close air support, dynamic targeting, and 
defensive counterair, and it pits them against other units who 
are specially trained to replicate the tactics and techniques 
of potential adversaries. In fact during the Red Flag 
operations, the forces amassed at Nellis Air Force Base combine 
to constitute the fourth largest air force in the world.
    Nevada's Fourth Congressional District is also home to 
Creech Air Force Base, which is most famous as the command and 
control facility for remotely piloted aircraft systems flying 
missions across the globe. From its base in Nevada's Fourth 
District, airmen at Creech fly 70 to 75 percent of the unmanned 
aircraft combat operations around the world, 24 hours a day, 7 
days a week.
    And finally, I would like to recognize the importance of 
the Hawthorne Army Depot in Hawthorne, Nevada. If you visit the 
depot, which I recently did, you will see thousands of 
munitions storage structures dotting the Nevada desert. These 
facilities are used to ship thousands of tons of munitions per 
year to the warfighter, and receive thousands of tons of 
ammunitions per year for disposal. In addition, Hawthorne is 
home to the detachment of the Naval Undersea Warfare Center.
    The Fourth Congressional District in Nevada plays an 
essential role in protecting our national security and 
supporting our military. That is why, Mr. Chairman, I am asking 
that you continue to authorize the operations that occur at 
Nellis, Creech, the Nevada Test and Training Range, as well as 
the Hawthorne Army Depot as part of the NDAA so that Nevada can 
continue to lead the way in conducting vital missions all 
around the globe.
    I want to thank you for your time and for letting me 
testify in front of your committee. Thank you, Mr. Chairman and 
Ranking Member.
    [The prepared statement of Mr. Kihuen can be found in the 
Appendix on page 32.]
    The Chairman. Thank you. No doubt, very--a number of very 
important facilities, but also we share your grief at the loss 
over this past week. We have been losing too many pilots and 
certainly one of the Thunderbirds is one of our best. So thank 
you.
    Mr. Kihuen. Thank you, Mr. Chairman.
    The Chairman. And thanks for being here. If there are no 
other questions of Mr. Kihuen, I might just say I think we are 
going to have to come back after the vote for the second panel 
for--for Mr. Schneider and Mr. Johnson and Mr. Rutherford. So 
just heads up, I think we will hopefully have a chance to hear 
from Mr. Donovan and then we will come back immediately after 
votes for our second panel.
    Mr. Donovan, welcome, the floor is yours.

STATEMENT OF HON. DANIEL M. DONOVAN, JR., A REPRESENTATIVE FROM 
                            NEW YORK

    Mr. Donovan. Thank you, Mr. Chairman. Thank you, Ranking 
Member Smith and members of the Armed Services Committee. Thank 
you for the opportunity to testify today.
    Mr. Chairman, I am requesting an amendment to the National 
Defense Authorization Act to require the Pentagon to propose a 
legal definition of cyber warfare. No matter how much 
technology has changed from the days of ancient Greece and 
Roman--Greek and Roman warfare until now, we have thought of 
war as involving weapons and the use of physical force. In 
modern times we have a large body of both United States and 
international law that defines and governs war. But for the 
past several decades we have faced a threat that does not have 
a legal definition: cyber warfare.
    Cyber war does not fit within the traditional confines of 
how we conceive warfare. While we have a Cyber Command that is 
tasked with protecting U.S. cyberspace, we do not have a legal 
definition detailing under what circumstances a cyberattack is 
considered an act of war. That is why I am requesting an 
amendment that will require the Pentagon to form a working 
group to propose a legal definition, report back to Congress, 
and make the findings known to the public.
    We currently do not know when a cyberattack is an act of 
war. If North Korea were to bomb a hospital, that would 
undoubtedly be considered an act of war under both U.S. and 
international legal standards, but if North Korea were to 
launch a cyberattack on a hospital and were able to shut down 
the hospital or alter patient records, there is nothing that 
defines this as an act of war.
    Cyber hacking is rampant. The White House just released a 
report that cyber crime cost the United States economy an 
estimated $57 billion to $106 billion in 2016 alone. If an 
enemy causes between $57 billion and $106 billion worth of 
damage from bombing U.S. soil, rest assured we would be at war 
right now.
    North Korea is one of the biggest perpetrators of cyber 
hacking. China, Iran, and Russia are also well known for 
engaging in this practice. Critical infrastructure, sensitive 
technology secrets, and Americans' private information are all 
at risk. Cyberattacks continue to develop, but they are not a 
new emerging technology. For the sake of our national security, 
we are long past due a legal definition that will allow us to 
confront the enemy. By not legally defining cyber warfare, we 
let our enemies know that this is an issue we are not ready to 
take seriously. It is time to change that.
    By creating a definition of when cyberattacks are an act of 
war, we will create a strong deterrent and stop other nation-
states from engaging in this practice against the United 
States. My amendment will start the process of the United 
States creating a legal framework for when a cyberattack is an 
act of war. I sincerely and respectfully request that the 
committee consider my amendment.
    Mr. Chairman, I also testify before you today seeking 
equity for the constituents I represent on Staten Island. As 
you may know the Post-9/11 GI Bill grants housing allowances 
and assistance to veterans attending college through the 
military's basic allowance for housing [BAH] program. This 
assistance is based on the rental and utility cost of the 
military housing area in which the veterans live.
    Currently, New York City is separated into two zones, one 
for Manhattan, Queens, Brooklyn, and the Bronx, and the other 
for Staten Island. Although the census status shows that Staten 
Island's median gross rent is within $50 of Brooklyn's and $100 
higher than the Bronx, the formula still grants Bronx students 
up to $1,335 more than Staten Island students. It is alarming 
that these hardworking military families in my hometown have 
nearly identical cost of living expenses, yet they do not 
receive the same allowances as BAH recipients who attend 
schools in the other 4 boroughs.
    The result is that Staten Island's three institutions of 
higher learning cannot recruit veteran students to their 
campuses because of the thousands upon thousands of dollars in 
reduced assistance it would mean for that student. I firmly 
believe that the most equitable and commonsense solution is to 
have only one military housing area for all of New York City. 
My amendment would require DOD to merge Staten Island's 
military housing area with the rest of New York City to create 
one military housing area for all of New York City.
    I again thank you very much for this opportunity to testify 
and I sincerely and respectfully request that the committee 
consider my amendment.
    [The prepared statement of Mr. Donovan can be found in the 
Appendix on page 34.]
    The Chairman. I appreciate it. I had no idea about the 
division in New York and so I don't know if that is appropriate 
statutory or regulatory, but we will work with you to pursue 
some sort of answer to that.
    And on your cyber deal, as you may know, we had a hearing 
earlier today on cybersecurity where this exact issue was 
discussed, so it is very timely that you would bring that today 
and I appreciate you being here. We will take a careful look at 
it.
    Mr. Donovan. Thank you, Mr. Chairman.
    The Chairman. Because there are votes, we are going to--the 
committee will stand in recess until just after votes and then 
we will conduct our second panel.
    [Recess.]
    The Chairman. The committee will resume. We appreciate our 
colleagues coming back from votes. Again, all your written 
statements have, without objection, been made part of our 
record, but we appreciate hearing from each of you on your 
priorities and what you think are good for the country.
    So we will start with Mr. Johnson. The gentleman is 
recognized.

STATEMENT OF HON. MIKE JOHNSON, A REPRESENTATIVE FROM LOUISIANA

    Mr. Johnson. Thank you, Mr. Chairman. Chairman Thornberry, 
Ranking Member Smith, and members of the committee, I sincerely 
appreciate you giving us the opportunity to return and provide 
input during the committee's Member Day hearing for the fiscal 
year 2019 National Defense Authorization Act.
    I have the distinct honor of representing a congressional 
district that's home to two vital military installations for 
our Nation and national security interest around the world: 
that is Fort Polk and Barksdale Air Force Base, and even our 
smaller National Guard facilities such as Camp Minden.
    As I am sure you know, Fort Polk is home to the Army Joint 
Readiness Training Center and Barksdale is home to the Air 
Force Global Strike Command. And as is evident with the recent 
provocations of Syria and North Korea and Iran and Russia and 
others, we live in a highly uncertain and incredibly complex 
time which further highlights the importance of these two bases 
and our military readiness to be fully prepared to combat any 
threat from overseas.
    In keeping with today's time constraints, I just wanted to 
focus primarily on two areas that I think are essential in 
needing attention by the committee and our Congress. One is 
modernizing our U.S. nuclear enterprise, and two is ensuring 
U.S. Army capabilities are fully equipped for necessary 
training exercises.
    As I begin, I wanted to--like to respectfully thank this 
committee for working closely with me last year while crafting 
the 2018 NDAA to begin the process of reengineering and 
modernizing the B-52 bombers at Barksdale Air Force Base. This 
much-needed makeover will extend the life of the B-52s into the 
2050s, which is amazing to even think about, and improve range 
and fuel efficiency and lower maintenance costs.
    And I would also like to relay my thanks for the continued 
support of Fort Polk from this committee in recognizing their 
vital importance to accomplishing its missions and military 
readiness.
    First, the nuclear enterprise. Today, I just briefly wanted 
to speak to the nuclear weapons as they continue to play an 
integral role in the strategies of Russia and North Korea, 
Pakistan, India, and China. In fact, according to many reports, 
as you all know and as evidenced from recent aggressive 
actions, these countries are increasing their reliance on and 
modernizing their capabilities whether it be on land, air or 
sea-based nuclear forces.
    If this Congress is going to be serious about rebuilding 
our nuclear infrastructure, it must continue to express support 
for the long-term commitment of Barksdale Air Force Base and 
for the majority of the nuclear triad. I applaud the decision 
by the U.S. Air Force to include the new gate at I-20 and 
Interstate 220 interchanges into Barksdale Air Force Base on 
its unfunded priority list. This project has to be completed in 
sequence to pave the way for construction of the weapon storage 
area which is currently scheduled to begin construction in 
fiscal year 2020.
    The new weapon storage area is absolutely vital to our 
nuclear enterprise as it will support the overall activities of 
Global Strike Command overseas and its necessary involvement in 
a wide array of strategic deterrence. As members of this 
committee, you are well aware of how critical the Bomber 
Command, Eighth Air Force in charge of our aging fleet and 
missile command, and the 20th Air Force in charge of the U.S. 
intercontinental ballistic missiles, are to deterrence and 
global strategy.
    Second is ground capabilities, and in any event that 
maintaining a capable and robust nuclear option does not 
suffice as a deterrent from war, it is imperative that we have 
a capable and ready ground force. And as this committee and the 
Congress have presented a path forward to rebuilding our force 
structure, the need for modernizing our ground capabilities is 
certainly prevalent to ensure full mission readiness.
    As a proud member who represents one of the two training 
centers, the unit training centers in the United States, Fort 
Polk Army Base and the Joint Readiness Training Center in our 
district are crucial to highlight how the Army has continued to 
solidify its footprint with the state-of-the-art Joint 
Readiness Training Center, the JRTC.
    As Fort Polk's JRTC provides invaluable training for advise 
and assist roles, and provides soldiers with the training and 
flexibility necessary to carry out the demands placed on them 
to achieve victory, it also partners with our close allies in 
collaborative joint exercises to prepare for the unique 
situations and challenges a unit may face while deployed.
    As we work to regrow our ground forces, and since Fort Polk 
remains a vital security asset, we should invest in the JRTC 
infrastructure to replace the existing Joint Operation Center, 
the JOC. As the current JOC was constructed in 1976, just 4 
years after my birth, it is in need of serious modernization 
and as it is unable to offer sensitive training scenarios above 
the secret level due to its outdated infrastructure.
    Authorizing a new JOC at Fort Polk would allow the JRTC to 
replicate scenarios that are sensitive in nature but offer 
invaluable training to fully prepare for any challenges ahead 
as it is the only combat training center in the Nation that 
also trains and deploys combat units.
    And preparing to close here, I just want to say the defense 
communities that surround both Barksdale Air Force Base and 
Fort Polk and JRTC have a long proven track record of fully 
supporting these two vital military installations and they 
stand ready to modernize our Armed Forces to meet our Nation's 
mission capabilities and necessary resources. Congressman 
Abraham has visited these bases with me and he has done it 
himself many times and he can attest to the same.
    And just recently at Fort Polk, the Army completed its 
largest land purchase of over 47,000 acres in an effort to 
provide even more robust training facilities and capabilities 
for the brigade combat team rotations. And that action was 
fully supported by the local community, enthusiastically so.
    And furthermore the State of Louisiana and our local 
community are finalizing an investment of $90 million to 
construct that I-20 interchange into the Barksdale Air Force 
Base, and that will open up the access to the installation's 
eastern reservation and relieving traffic congestion, paving 
the way for that weapon storage facility. Just last week, I was 
in Baton Rouge visiting my old colleagues at the Louisiana 
legislature and went to the hearing of the joint budget 
committee, and I just wanted to thank all my colleagues for 
their unanimous support for this vital project.
    And finally, I just want to thank this committee again for 
considering all these important priorities for our 
congressional district as you do all of these around the 
country, and I look forward to doing anything I can to support 
the committee's work to provide our military with the essential 
resources it needs. It is a top priority for all of us and it 
should be.
    Mr. Chairman, I appreciate your leadership and truly the 
time that you all take to consider all these things, the 
opportunity to show my continued support for our men and women 
in uniform. And I yield back, thank you.
    [The prepared statement of Mr. Johnson can be found in the 
Appendix on page 36.]
    The Chairman. Thank you. Any questions for the gentleman 
from Louisiana? The only complaint I have, Mr. Johnson, is 
being reminded about how young you are. That was kind of a low 
blow, but other than that, I appreciate it. Thank you for being 
here today.
    Mr. Johnson. Yes, sir.
    The Chairman. Mr. Rutherford, the floor is yours.

  STATEMENT OF HON. JOHN H. RUTHERFORD, A REPRESENTATIVE FROM 
                            FLORIDA

    Mr. Rutherford. Chairman Thornberry and Ranking Member 
Smith and distinguished members of the committee, I want to 
thank you for the opportunity to testify on behalf of my 
priorities which are important to northeast Florida and our 
country in the fiscal year 2019 National Defense Authorization 
Act.
    As some of you know, Florida's Fourth Congressional 
District encompasses most of Jacksonville and St. Augustine, 
and includes Naval Air Station Jacksonville, Naval Station 
Mayport, Marine Corps Blount Island Command, the Florida 
National Guard installations, and many industry partners, and I 
am proud to represent these men and women who contribute 
substantially to our national security.
    First, I want to thank the committee for its continued 
support of many programs that are key to the missions and 
growth at northeast Florida's installations. This includes the 
MQ-4C Triton, the P-8A Poseidon, the littoral combat ships, and 
various shipbuilding and repair accounts also among others. And 
I urge the committee to continue supporting these important 
programs.
    However, today I would like to spend time focusing on four 
areas of importance in this year's legislation: the E-2D 
Advanced Hawkeye procurement, the Air Force's light aircraft 
attack aircraft, the littoral combat ship [LCS], and the Law 
Enforcement Information Exchange program.
    First, the E-2D Advanced Hawkeye is the Navy's only 
carrier-based early warning and battle management command and 
control system. This aircraft is a key enabler of the carrier 
strike group [CSG] and provides theater air and missile 
defense, synthesizes information from multiple onboard and 
offboard sensors, makes complex tactical decisions, and 
disseminates actionable information to joint forces in a 
distributed open architecture environment. The U.S. Navy's 
unfunded priorities list this year includes $340 million for 
two additional E-2D aircraft in fiscal year 2019, for a total 
of six aircraft. The additional aircraft will allow for a more 
efficient production schedule and enable early transition of E-
2Cs over to the E-2Ds at the carrier airborne early warning 
[AEW] weapons school.
    Of operational importance, it will provide CSGs with the E-
2D's advanced capabilities to face rapidly evolving threats, 
ensuring that the most capable AEW aircraft is available for 
the defense and protection of U.S. and coalition forces. I want 
to urge the committee to support this request of six aircraft 
in fiscal year 2019 along with supporting the necessary RDT&E 
[research, development, test, and evaluation].
    Second, senior Air Force leadership has stated the need to 
procure a fleet of off-the-shelf light attack aircraft, 
commonly referred to as the OA-X program. And last year's NDAA 
supported this concept of rapid procurement, as greater use of 
this type of aircraft would provide close air support [CAS] in 
a cost-effective way for the Air Force.
    Using aircraft like the A-29 Super Tucano is a cheaper 
solution than having a more advanced aircraft like the F-35 
carrying out CAS and other missions. This saves money and 
extends the life of the more expensive aircraft. The Air Force 
has conducted an experiment leading to the procurement decision 
this year, and should that decision be made, Congress needs to 
be prepared to meet that request. And I urge the committee to 
provide advanced procurement funding for the purchase of long-
lead items so that this first delivery of the aircraft would be 
no later than 2020. And I believe the full utilization of 
investment in this program has the potential to reshape how our 
airmen carry out their mission.
    Third, one program I know this committee is intimately 
familiar with is littoral combat ship, which the Freedom-class 
ships are homeported at Naval Station Mayport. And I applaud 
the committee's continued support of this program and for its 
commitment to rebuilding our Navy's fleet.
    Of importance to Mayport, the President's budget request 
supported the necessary LCS MILCON [military construction] at 
Mayport for its training and support facilities. I urge the 
committee to support this request, as the current alternative 
is actually to send these crews out to San Diego to be trained 
which is neither good--which is neither a good use of taxpayer 
money nor is it good for the crews. I also strongly support 
three more LCS in 2019 and a quick transition to the new 
frigate, as I know many on the committee do as well.
    Last, as a former sheriff, I understand the tools that can 
help our law enforcement and intelligence agencies carry out 
their respective missions. The Naval Criminal [Investigative] 
Service successfully used a capability called the Law 
Enforcement Information Exchange commonly referred to as LInX 
to address the data collection, analysis, and integration 
challenges that confront the defense intelligence and law 
enforcement agencies at all levels of government.
    I have seen firsthand the importance of this capability in 
dealing with high-value, disparate data in numerous law 
enforcement and intelligence agencies, and so I would like to 
submit report language for the request that LInX actually be 
made a congressional interest item to ensure it receives 
adequate and stable funding.
    Again, I thank all of you, Mr. Chairman, Ranking Member 
Smith, for the ability to be here to speak today. I also thank 
you on behalf of a grateful Nation for all the hard work that 
you all do in ensuring that our Nation remains the strongest 
and safest in the world. And I am always available for further 
discussion on these or any other programs of interest. And I 
yield back, Mr. Chairman.
    [The prepared statement of Mr. Rutherford can be found in 
the Appendix on page 40.]
    The Chairman. Okay. Any questions to Mr. Rutherford? Thank 
you, sir, I appreciate you being here. We will certainly take a 
look at the report language you requested. One of our 
challenges this year is we have a specified top line, and so 
adding in one area means we have got to take away from another 
and I think that is going to be a challenge for all our members 
this year.
    But we will--I am--I know all of the other three programs 
you specifically mentioned will be a very top item for 
discussion, so thank you.
    Mr. Rutherford. Thank you.
    The Chairman. I appreciate you being here.
    Mr. Schneider, thank you for being here.

  STATEMENT OF HON. BRADLEY SCOTT SCHNEIDER, A REPRESENTATIVE 
                         FROM ILLINOIS

    Mr. Schneider. Thank you. Thank you, Chairman Thornberry, 
Ranking Member Smith, for this opportunity to share with the 
House Armed Services Committee some key priorities for 
Illinois' 10th Congressional District. I appreciate you making 
the time today.
    My district is the proud home of many military families, 
Active Duty, reservists, and veterans. As well, Naval Station 
Great Lakes, North Chicago, through which every single new Navy 
recruit passes, is in my district and is central to our local 
community. We appreciate your work on the National Defense 
Authorization Act, which is important both for our national 
security and our local communities.
    I first respectfully request that you again include 
language addressing the opioid crisis. Our men and women in 
uniform are not immune from the opioid epidemic ravaging the 
country. In fact, the National Institute of Health reports 
rates of prescription opioid misuse are higher among service 
members than among civilians due to the use of these drugs to 
treat the symptoms of PTS [post-traumatic stress] and chronic 
pain.
    Last year, an amendment I offered to set continuing 
education requirements for Department of Defense doctors who 
prescribe opioids was included in the House-passed version of 
the NDAA. Unfortunately it was not included in the final bill. 
Including this provision would ensure our military doctors are 
up to date on the latest best practices in preventing 
overprescribing and treating misuse.
    Second, I urge the committee to continue to support a 
critical joint counter-tunnel defense program undertaken with 
our ally Israel. These sophisticated subterranean tunnels are a 
major strategic threat for Israel and are used by terrorist 
networks to stockpile weapons and launch deadly attacks. 
Sustained joint cooperation to counter those tunnels both helps 
protect Israel and yields technological benefits for American 
efforts to secure our own borders and in the fight against 
global terrorism. I urge the committee to again authorize this 
program which is appropriated for $47.5 million in the recently 
passed fiscal year 2018 omnibus.
    Finally, I urge the committee to address the issue of 
delayed promotions for men and women serving in the United 
States National Guard. This issue was brought to my attention 
by a constituent who waited nearly a year for Federal 
recognition of his promotion. A recent poll of members by the 
National Guard Association of the United States found nearly 
half of respondents said it took more than 195 days to receive 
a promotion, which is longer than the timeline set out by the 
National Guard.
    I ask this committee to urge the National Guard to address 
this issue to ensure promotions are granted in a more timely 
and efficient manner while still maintaining necessary 
oversight. Thank you for your time and consideration on these 
matters and I appreciate all the work you do to serve our men 
and women in uniform and to protect our Nation. Thank you.
    [The prepared statement of Mr. Schneider can be found in 
the Appendix on page 43.]
    The Chairman. Great. Any questions for Mr. Schneider?
    Thank you, sir. I appreciate it, three very important 
issues that we will take a careful look at. So, thank you for 
being here.
    As far as I know, there are no other witnesses. So the 
hearing stands adjourned.
    [Whereupon, at 2:40 p.m., the committee was adjourned.]

    
=======================================================================

                            A P P E N D I X

                             April 11, 2018
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 11, 2018

=======================================================================

  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 11, 2018

=======================================================================
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                [all]
</pre></body></html>
